No. 20-953
In the

Supreme Court of the United States

MICHAEL D. ELLIS,
Petitioner,
v.
LIBERTY LIFE ASSURANCE COMPANY OF BOSTON,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Tenth Circuit

BRIEF IN OPPOSITION
Kristina N. Holmstrom
Ogletree, Deakins, Nash,
Smoak & Stewart, P.C.
2415 East Camelback Road,
Suite 800
Phoenix, Arizona 85016
(602) 778-3700

Byrne J. Decker
Counsel of Record
Ogletree, Deakins, Nash,
Smoak & Stewart, P.C.
Two Monument Square,
7th Floor
Portland, Maine 04101
(207) 387-2957
byrne.decker@ogletree.com

Counsel for Respondent
301988

A
(800) 274-3321 • (800) 359-6859

i
Question Presented
Whether the Court needs to clarify any further
whether a forum court can ignore an ERISA plan’s choice
of law provision that selects the plan sponsor’s home
state in an action by a participant seeking benefits under
the terms of the plan, when (1) all circuit courts have
adopted tests that presume application of the choice of law
provision absent unusual circumstances not present here;
(2) the minor, insignificant distinctions in the circuits’ tests
would make no difference to the outcome here; and (3) the
Tenth Circuit reached the correct result by honoring the
plan’s choice of law provision which promotes ERISA’s
underlying interests, including those interests recognized
by the insurance saving clause.

ii
List of Parties
The caption of the case contains the names of all the
parties.

iii
Corporate Disclosure
Statement Under Rule 29.6
Respondent Lincoln Life Assurance Company of
Boston (f/k/a Liberty Life Assurance Company of Boston)
(“Liberty”) states that it is a wholly owned subsidiary of
The Lincoln National Life Insurance Company, which is a
wholly owned subsidiary of the following publicly traded
corporation: Lincoln National Corporation.

iv
TABLE OF CONTENTS
Page
Question Presented . . . . . . . . . . . . . . . . . . . . . . . . i
List of Parties . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
Corporate Disclosure Statement
Under Rule 29.6  . . . . . . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . vi
Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
statement of the case . . . . . . . . . . . . . . . . . . . . 2
I.

Statutory Background.  . . . . . . . . . . . . . . . . . . . . . 2

II. Factual Background. . . . . . . . . . . . . . . . . . . . . . . . 7
III. Procedural Background. . . . . . . . . . . . . . . . . . . . . 8
Reasons for Denying the petition . . . . . . . . . . . . . . . . . . 12
I.

There Is No Circuit Split That Would
Affect The Outcome Of This Case Or Any
Case Like It . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
A. All Circuits Enforce an ERISA Plan’s
Choice of Law Clause Absent Unusual
Circumstances Not Present Here . . . . . . . 13

v
Table of Contents
Page
B. The Minor Distinctions in the Circuits’
Tests Would Make No Difference
to the Outcome Here . . . . . . . . . . . . . . . . . . 18
1.

E ve r y C i r c u it t o C on s i d e r
the Applicability of a Plan’s
Discretionary Clause Has Honored
a Plan Sponsor’s Choice of its
Home State’s Law That Does Not
Ban Discretionary Clauses  . . . . . . . . . 18

2. Applying the Durden Restatement
Test Would Result in Application of
the Choice of Law Clause Here . . . . . . 19
C. T here Is No Con f usion A mong
The Circuits As To The Applicable
Standard of Review Where The Plan
Sponsor Chooses The Law Of Its Home
State And That Home State Does
Not Ban Discretionary Clauses . . . . . . . . . 25
II. El l is’s P rof fered Ru le Cont ravenes
Established Precedent From This Court . . . . . 25
III. The Tenth Circuit’s Decision Does Not
Implicate The Saving Clause Or State
Regulation Issues . . . . . . . . . . . . . . . . . . . . . . . . . 27
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

vi
TABLE OF CITED AUTHORITIES
Page
Cases
Aetna Health Inc. v. Davila,
542 U.S. 200 (2004) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
BMW of N. Am., Inc. v. Gore,
517 U.S. 559 (1996)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
Boseman v. Connecticut Gen. Life Ins. Co.,
301 U.S. 196 (1937)  . . . . . . . . . . . . . . . . . . . . . . . passim
Brake v. Hutchinson Tech. Inc. Group Disability
Income Ins. Plan,
774 F.3d 1193 (8th Cir. 2014)  . . . . . . . . . . . . . . . . 13, 18
Buce v. Allianz Life Ins. Co.,
247 F.3d 1133 (11th Cir. 2001)  . . . . . . . . . . . . . . . . . . 13
Conkright v. Frommert,
590 U.S. 506 (2010)  . . . . . . . . . . . . . . . . . . . . . . . 4, 6, 17
DaimlerChrysler Corp. Healthcare Benefits Plan
v. Durden,
448 F.3d 918 (6th Cir. 2006) . . . . . . . . . . . . . . . . passim
E. Enterprises v. Apfel,
524 U.S. 498, 118 S. Ct. 2131,
141 L. Ed. 2d 451 (1998) . . . . . . . . . . . . . . . . . . . . . . . 29

vii
Cited Authorities
Page
Ellis v. Liberty Life Assurance Co. of Boston,
958 F.3d 1271 (10th Cir. 2020) . . . . . . . . . . . . . . . 13, 18
Fenberg v.
Cowden Auto. Long Term Disability Plan,
259 Fed. Appx. 958 (9th Cir. 2007) . . . . . . . . . . . . . . 18
Firestone Tire & Rubber Co. v. Bruch,
489 U.S. 101 (1989)  . . . . . . . . . . . . . . . . . . . . . . . 4, 5, 17
FMC Corp. v. Holliday,
498 U.S. 52 (1990)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Fort Halifax Packing Co. v. Coyne,
482 U.S. 1 (1987) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Greenberg v. Aetna Life Ins. Co.,
421 Fed. Appx. 124 (2d Cir. 2011) . . . . . . . . . . . . . . . 14
Hancock v. Metropolitan Life Ins. Co.,
590 F.3d 1141 (10th Cir. 2009) . . . . . . . . . . . . . . . . . . . 9
Hansen v. GAB Bus. Servs., Inc.,
876 P.2d 112 (Colo. App. 1994) . . . . . . . . . . . . . . . . . . . 9
Heimeshoff v. Hartford Life & Acc. Ins. Co.,
571 U.S. 99 (2013)  . . . . . . . . . . . . . . . . . . . . . . . . . . 4, 23
Jimenez v. Sun Life Assur. Co. of Canada,
486 Fed. Appx. 398 (5th Cir. 2012)  . . . . . . . . . . . . . . 14

viii
Cited Authorities
Page
Kennedy v.
Plan Adm’r for DuPont Sav. & Inv. Plan,
555 U.S. 285 (2009) . . . . . . . . . . . . . . . . . . . . . . . . . 4, 16
McClenahan v. Metropolitan Life Insurance Co.,
621 F. Supp. 2d 1135 (D. Colo. 2009), aff’d,
416 Fed. Appx. 693 (10th Cir. 2011) . . . . . . . . . . . 11, 29
Med. Mut. of Ohio v. deSoto,
245 F.3d 561 (6th Cir. 2001) . . . . . . . . . . . . . . . . . . . . 21
Metro. Life Ins. Co. v. Glenn,
554 U.S. 105 (2008) . . . . . . . . . . . . . . . . . . . . . . . . . . .  17
Metropolitan Life Ins. Co. v. Massachusetts,
471 U.S. 724 (1985)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
New York Life Ins. Co. v. Head,
234 U.S. 149 (1914) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
Pilot Life Ins. Co. v. Dedeaux,
481 U.S. 41 (1987)  . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 17
Rasenack ex rel. Tribolet v. AIG Life Ins. Co.,
585 F.3d 1311 (10th Cir. 2009) . . . . . . . . . . . . . . . . . . . 9
Singletary v. United Parcel Serv., Inc.,
828 F.3d 342 (5th Cir. 2016) . . . . . . . . . . . . . . . . . . . . 14

ix
Cited Authorities
Page
Travelers Ins. Co. v. Fields,
451 F.2d 1292 (6th Cir. 1971) . . . . . . . . . . . . . . . . . . . 22
Unum Life Insurance Company v. Ward,
526 U.S. 358 (1999) . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
US Airways, Inc. v. McCutchen,
569 U.S. 88 (2013)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Varity Corp. v. Howe,
516 U.S. 489 (1996)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Walters v. City of St. Louis, Mo.,
347 U.S. 231 (1954)  . . . . . . . . . . . . . . . . . . . . . . . . 15, 28
Wang Laboratories, Inc. v. Kagan,
990 F.2d 1126 (9th Cir. 1993) . . . . . . . . . . . . . . . . 13, 18
Statutes and Other Authorities
29 U.S.C. § 1001  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
29 U.S.C. § 1055(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
29 U.S.C. § 1132(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
29 U.S.C. § 1132(a)(1)(B)  . . . . . . . . . . . . . . . . . . . . . . . . . . 4
29 U.S.C. § 1144(a)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 6

x
Cited Authorities
Page
29 U.S.C. § 1144(b)(2) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
C.R.S. § 10-3-1116(2)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
C.R.S. § 10-3-1116(8)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Restatement (Second) Conflicts of Law § 187 . . . . passim
Restatement (Second) Conflicts of Law § 192 . . . . . 22, 23

1
Introduction
In this case, a Pennsylvania employer elected to have
its ERISA long-term disability (“LTD”) plan governed by
Pennsylvania law, to the extent not otherwise preempted
by ERISA. Consistent with Pennsylvania law, the plan
conferred discretion on Liberty, the claim administrator.
But Ellis filed a lawsuit seeking plan benefits in Colorado,
which has a statute banning discretionary language.
Ellis argued that because he chose to file his lawsuit in
Colorado, the Colorado statute wrote the discretionary
language out of the Pennsylvania-governed plan. Ellis’s
argument, which the Tenth Circuit correctly rejected,
violates all existing circuit authority and undermines the
purposes of ERISA.
All the Circuit Courts to consider the issue have
adopted tests that presume enforcing an ERISA plan’s
choice of law clause, absent unusual circumstances not
present here. Circuit courts have uniformly honored the
plan’s choice of law provision where, as here, an employee’s
home state bans discretionary language, but the employer
has chosen that its plan will be governed by the laws of its
own home state that does not ban discretionary language.
The minor distinctions between the circuits’ tests,
which become relevant only under unusual circumstances,
would make no difference to the outcome here. As such,
this case is a poor vehicle to resolve those insignificant
differences.
Not only is there no meaningful circuit split, the
current state of the law fully promotes ERISA’s goals of
efficiency and predictability. Under existing authority,

2
administrators and participants can easily determine
(1) which state’s law will apply to a participant’s lawsuit
for benefits (to the extent state law is not preempted
by ERISA) and (2) what the standard of review will be
because it will be consistent for every participant, no
matter where they happen to live or file a lawsuit. This is
precisely the framework that will sustain a robust system
of employer-provided benefits. The Tenth Circuit correctly
upheld the plan language in accordance with the existing
authority from other circuits and fulfilling the purposes
of ERISA.
Nor does applying the plan’s chosen state law violate,
or even implicate ERISA’s saving clause. The choice of
law provision simply dictates which state’s laws (to the
extent not preempted by ERISA, whether by virtue of
the saving clause or otherwise) govern claims under this
plan. In doing so, the choice of law provision both provides
consistency and predictability as well as fulfills ERISA’s
desire to preserve state insurance laws.
There is no reason to accept certiorari in this case
because the system is already working as intended.
statement of the case
I.

Statutory Background.

There is no law requiring employers to provide
disability benefits to their employees. To encourage
employers to offer welfare benefits, such as disability
benefits, Congress enacted The Employee Retirement
Income Security Act of 1974 (“ERISA”), 29 U.S.C.
§§ 1001, et seq. ERISA does not regulate the content of

3
plans; rather, employers are free to provide as many or
as few benefits as they wish. Metropolitan Life Ins. Co.
v. Massachusetts, 471 U.S. 724, 732 (1985).
“The purpose of ERISA is to provide a uniform
regulatory regime over employee benefit plans.” See
Aetna Health Inc. v. Davila, 542 U.S. 200, 215 (2004).1
Accordingly, when disputes arise regarding an employee’s
entitlement to benefits, Section 1132 of ERISA completely
preempts the field and provides a participant’s exclusive
remedy for such claims. 29 U.S.C. § 1132(a). This
exclusive enforcement scheme avoids the inefficiencies
that a “patchwork scheme of regulation” would cause and
ensuring that benefit plans “will be governed by only a
single set of regulations.” FMC Corp. v. Holliday, 498 U.S.
52, 60 (1990) (quoting Fort Halifax Packing Co. v. Coyne,
482 U.S. 1, 10 (1987).
The hallmark of ERISA’s exclusive enforcement
scheme is that it requires “‘careful balancing’ between
ensuring fair and prompt enforcement of rights under a
plan and the encouragement of the creation of such plans.”
Davila, 542 U.S. at 215 (quoting Pilot Life Ins. Co. v.
Dedeaux, 481 U.S. 41, 55 (1987)). ERISA accomplishes
1. This implicates two types of preemption. First, ERISA’s
express preemption provision states that the statute “shall
supersede any and all State laws insofar as they may now or
hereafter relate to any employee benefit plan,” subject to several
exceptions. 29 U.S.C. § 1144(a). Second, “[t]he preemptive force of
[ERISA’s civil remedies provision] is still stronger,” and is subject
to no exceptions. Davila, 542 U.S. at 209, 217 (“even a state law
that can arguably be characterized as ‘regulating insurance’ will
be preempted if it provides a separate vehicle to assert a claim for
benefits outside of, or in addition to, ERISA’s remedial scheme.”).

4
this by requiring administrators and courts to strictly
adhere to the terms of the plan. Kennedy v. Plan Adm’r
for DuPont Sav. & Inv. Plan, 555 U.S. 285, 300 (2009).
A participant’s “claim therefore stands or falls by the
terms of the plan, a straightforward rule of hewing to
the directives of the plan documents that lets employers
establish a uniform administrative scheme, [with] a set
of standard procedures to guide processing of claims
and disbursement of benefits.” Id. (internal citations
and quotations omitted). In holding, under similar
circumstances, that courts must honor plan terms2 as long
as they are reasonable, this Court noted that adherence
to the terms of the plan is the “linchpin of ‘a system that
is [not] so complex that administrative costs, or litigation
expenses, unduly discourage employers from offering
[ERISA] plans in the first place.’” Heimeshoff v. Hartford
Life & Acc. Ins. Co., 571 U.S. 99, 108 (2013) (quoting Varity
Corp. v. Howe, 516 U.S. 489, 497 (1996)).
“Although it is a comprehensive and reticulated
statute, ERISA does not set out the appropriate standard
of review for actions under § 1132(a)(1)(B) challenging
benefit eligibility determinations.” Firestone Tire &
Rubber Co. v. Bruch, 489 U.S. 101, 108–09 (1989). But
2. The duty to strictly enforce the plan’s terms runs to the
plan as a whole. Thus, when considering how a fiduciary carries
out this duty, ERISA does not “favor payment over nonpayment”;
rather, it “recognizes the need to preserve assets to satisfy future,
as well as present, claims and requires a trustee to take impartial
account of the interests of all beneficiaries.” Varity Corp. v. Howe,
516 U.S. 489, 514 (1996); see also Conkright v. Frommert, 590 U.S.
506, 520 (2010) (administrators “have a duty to all beneficiaries to
preserve limited plan assets . . . [and should] prevent . . . windfalls
for particular employees”).

5
because the plan is “the center of ERISA,” 3 the plan
sponsor (the employer) can adopt a plan term that
provides discretionary authority to an administrator. In
that instance, courts cannot ignore such plan language
but must instead defer to the administrator’s decision,
and overturn only for abuse of discretion. Firestone, 489
U.S. at 109. Courts respect the plan sponsor’s choice to
delegate primary interpretative authority to the claims
administrator.
As this Court has previously explained:
Congress enacted ERISA to ensure that
employees would receive the benefits they had
earned, but Congress did not require employers
to establish benefit plans in the first place. . . .
ERISA induces employers to offer benefits by
assuring a predictable set of liabilities, under
uniform standards of primary conduct and a
uniform regime of ultimate remedial orders and
awards when a violation has occurred.
Firestone deference protects these interests
and, by permitting an employer to grant
primary interpretive authority over an ERISA
plan to the plan administrator, preserves
the careful balancing on which ERISA is
based. Deference promotes efficiency by
encouraging resolution of benefits disputes
through internal administrative proceedings
rather than costly litigation. It also promotes
predictability, as an employer can rely on the
3. US Airways, Inc. v. McCutchen, 569 U.S. 88, 101 (2013).

6
expertise of the plan administrator rather
than worry about unexpected and inaccurate
plan interpretations that might result from de
novo judicial review.
Conkright, 559 U.S. at 516–18 (emphasis added).
To further avoid inconsistency and “a patchwork of
different interpretations,” national employers may adopt
a plan that includes a term electing the law of the state
where the employer is based, to govern any issue not
otherwise preempted by ERISA. This practice, which
lends certainty and consistency to benefit decisions,
long-predates ERISA. See, e.g., Boseman v. Connecticut
Gen. Life Ins. Co., 301 U.S. 196, (1937).4 Because ERISA
does not always preempt state laws regulating insurance,
choice of law provisions have the added benefit of easily
clarifying which state’s “saved” insurance laws, apply to
a given benefits dispute.
Despite the cardinal benefits of discretion and
consistency, some states have enacted legislation to ban
discretionary language in group insurance policies5 that
fund benefit plans. As described in the following section,
Colorado, the state where Ellis chose to file a lawsuit,
for instance, enacted a statute banning discretionary
4. Ellis suggests that choice of law provisions in group
insurance policies were the industry’s reaction to states banning
discretionary clauses. This is demonstrably false. Boseman
illustrates that choice of law provisions in group policies date back
nearly a century.
5. ERISA preemption prevents states from altering the
terms of self-funded plans. 29 U.S.C. § 1144(a), (b)(2).

7
language in any disability “insurance policy, insurance
contract, or plan that is issued in this state . . . .” (emphasis
added). But the plan sponsor, Comcast, adopted a plan
term expressly choosing the laws of its home state,
Pennsylvania, to the extent not preempted by ERISA.6
Pennsylvania does not ban discretionary clauses.
As explained below, there is no test adopted by any
circuit that allows Colorado’s statute to rewrite the
Pennsylvania plan. Nor does ERISA’s saving clause
require applying multiple states’ regulations to a single
ERISA plan—particularly one that has elected to be
governed by one state’s laws.
II. Factual Background.
Comcast established an employee welfare benefits
plan for its employees. (App. 6a.) As part of its plan,
Comcast offered long-term disability (“LTD”) coverage
to its employees. To fund that aspect of its plan, Comcast
applied for a group LTD insurance policy from Liberty.
Liberty issued Comcast a group policy effective June 1,
2005 (the “Group Policy”). (Id.; App. 48a.) Comcast and
Liberty agreed that, to the extent not preempted by
ERISA, the Group Policy would be governed by the laws
of Pennsylvania, Comcast’s home state. (App. 14a, 33a.)
The Group Policy confers discretion on Liberty. (App. 13a.)

6. Although these statutes can raise preemption issues,
depending on the specific language, Liberty is not relying on
preemption here.

8
Ellis, a Comcast employee, stopped working on
February 12, 2012 and submitted a claim to Liberty.
(App. 6a.) According to Ellis, he suffered a hypoxic brain
injury causing cognitive impairment when his heart
stopped for 24 seconds while being treated in the hospital
for a pulmonary embolism. (App. 6a-7a.) Although the
medical evidence demonstrated that it was unlikely “a
24-second heart stoppage could cause cerebral hypoxia
or neurological injury,” Liberty gave Ellis the benefit of
the doubt and approved his claim. (App. 8a.) Liberty’s
ongoing investigation, however, revealed that Ellis had
stopped supporting his claim with treating physicians and
instead relied almost entirely on a neuropsychologist hired
by Ellis’s attorney. (App. 38a-41a.) Through a vendor,
Liberty retained an independent neuropsychologist
to conduct neuropsychological testing, which revealed
that Ellis did not have cognitive impairment and was
exaggerating his symptoms. (App. 42a-43a.) Liberty
concluded that Ellis had not satisfied his burden of proof
and terminated benefits. (App. 9a-10a.) Through counsel,
Ellis appealed. Liberty then asked a separate boardcertified neuropsychologist to review the records and
testing. (App. 10a-11a.) This neuropsychologist agreed
that the records did not support cognitive impairment.
(App. 11a.) Accordingly, Liberty upheld its decision on
appeal. (Id.)
III. Procedural Background.
Ellis filed this lawsuit in the District of Colorado. The
district court initially sided with Liberty, finding (1) that
discretionary review applied because Liberty issued the
Group Policy to Comcast before Colorado’s discretionary

9
ban took effect7 and (2) upheld Liberty’s claim decision
under that deferential standard. (App. 72a-73a, 79a.) Ellis
moved for reconsideration, arguing that an SPD that postdated enactment of Colorado’s statutory ban8 brought the
Group Policy within the statute’s purview. (App. 49a.)
The district court agreed and applied a de novo review,
ultimately determining that Liberty’s decision was not
supported by a preponderance of the evidence9 and finding
in favor of Ellis.

7. Although the district court correctly found that the
Colorado statute did not apply because the Group Policy predated
it, the district court erroneously struck the choice of law provision
from the Group Policy. (App. 70a.) The district court incorrectly
applied a Colorado case, which, in turn, incorrectly called for only
part of the test set forth in the Restatement (Second) Conflicts
of Law § 187. (App. 70a-71a (relying on Hansen v. GAB Bus.
Servs., Inc., 876 P.2d 112, 113 (Colo. App. 1994).) As set forth in
Section I.A, below, in ERISA cases, conflicts of law are resolved
by federal common law, not by applying the substantive law of
the forum state. As further set forth in Section I.A, Section 187
contains a threshold test (whether ERISA permits the parties to
resolve the particular issue by contract) that the district court
never applied. (Id.)
8. The SPD was not prepared by Liberty and had no impact
on Liberty’s obligations, which were governed solely by the Group
Policy. (App. 50a.)
9. In doing so, the district court impermissibly flipped
the burden of proof. It is always the claimant’s burden to prove
entitlement to benefits; Liberty had no obligation to disprove
Ellis’s claim. See, e.g., Rasenack ex rel. Tribolet v. AIG Life Ins.
Co., 585 F.3d 1311, 1324 (10th Cir. 2009); see also Hancock v.
Metropolitan Life Ins. Co., 590 F.3d 1141, 1155 (10th Cir. 2009)

10
Liberty appealed to the Tenth Circuit, arguing that
the court erroneously failed to honor the Group Policy’s
choice of law provision, which required application of
Pennsylvania law, not Colorado law. Liberty further
argued that the Colorado statute did not apply on its face
because the Group Policy was not issued in Colorado and,
beyond that, was issued before the discretionary ban took
effect in 2008. Finally, Liberty argued that its decision
would withstand any standard of review. (App. 4a-5a.) The
Tenth Circuit agreed with Liberty, finding that the Group
Policy’s choice of law provision was effective because the
state chosen (the state where Comcast is headquartered)
had a “legitimate connection” to the plan. (App. 33a.) After
determining that discretionary review should apply, the
Tenth Circuit painstakingly reviewed the administrative
record and upheld Liberty’s decision. (App. 35a-46a.)
Specifically, the court explained:
Liberty relied on two expert neuropsychologists,
. . . who both concluded that there was insufficient
evidence from Ellis’s medical records and test
data to support his claim of cognitive deficits.
Because the record shows Liberty and the
experts it retained considered all the pertinent
evidence submitted by Ellis and that Liberty
reasonably gave less weight to much of Ellis’s
evidence, we cannot say that Liberty abused its
discretion in denying Ellis’s claim for benefits.
(App. 46a.)
While the parties were awaiting the Tenth Circuit’s
decision, anticipating he would not prevail on appeal,
Ellis and his attorney lobbied the Colorado Legislature

11
to modify the discretionary ban so that it retroactively
rewrites the definition of a policy “issued in [Colorado]”
to include:
every health and disability insurance policy,
insurance contract, insurance certificate, and
insurance agreement existing, offered, issued,
delivered, or renewed in the state of Colorado
or providing health or disability benefits to a
resident or domiciliary of the state of Colorado
and every employee benefit plan covering a
resident or domiciliary of the state of Colorado,
whether or not on behalf of an employer located
or domiciled in Colorado, on or after August
5, 2008, notwithstanding any contractual
or statutory choice-of-law provision to the
contrary.
C.R.S. § 10-3-1116(8).10 Because the amendment only took
effect on September 14, 2020, no lower court ever analyzed
it in this case. Ellis petitioned for an en banc rehearing,
but the Tenth Circuit denied his request without analysis.
(App. 1a.) To date, no lower court has assessed the impact
of Ellis’s legislative efforts.

10. Although Ellis’s sponsored amendment purports to be
retroactive, the District of Colorado (as affirmed by the Tenth
Circuit) has already held that the Colorado Constitution bars
the retroactive application of the discretionary ban statute.
McClenahan v. Metropolitan Life Insurance Co., 621 F. Supp.
2d 1135 (D. Colo. 2009), aff’d, 416 Fed.Appx. 693 (10th Cir. 2011)
(statute only applied to insurance policies issued after 2008).

12
Reasons for Denying the petition
There is no circuit split for this Court to resolve. All
circuits apply tests that presume applying a choice of law
clause absent unusual circumstances. And when, as here,
a plan elects to be governed by its home state law, the
circuit courts have uniformly refused to ignore a valid
choice of law provision just because a forum state bans
discretionary clauses. Although the Sixth Circuit applies a
slightly different test than the other circuits when unusual
circumstances do occur, applying that test here would not
change the outcome. This case is thus a poor vehicle to
resolve what is, at most, a minor disagreement between
the circuits. Accordingly, there is no circuit split to resolve
and accepting certiorari to clarify what test courts should
use in analyzing ERISA choice of law provisions would
not change the result in this case. Any opinion would be
advisory. The existing circuit authority fulfills ERISA’s
goals and should not be disturbed.
Moreover, Ellis makes arguments that he never made
below: that Restatement Section 187 should govern the
choice of law analysis and that honoring the employer’s
chosen law somehow violates ERISA’s saving clause. Not
only would neither of these arguments affect the Tenth
Circuit’s decision, they have the added drawback of raising
issues not litigated below.

13
I.

There Is No Circuit Split That Would Affect The
Outcome Of This Case Or Any Case Like It.
A.	All Circuits Enforce an ERISA Plan’s Choice
of Law Clause Absent Unusual Circumstances
Not Present Here.

Four circuits —the Eighth, Ninth, Tenth and
Eleventh—have adopted nearly identical tests when
deciding whether to honor a choice of law provision in an
ERISA plan. The Eighth, Ninth and Eleventh Circuits
enforce the choice of law provision “if not unreasonable
or fundamentally unfair.” Brake v. Hutchinson Tech.
Inc. Group Disability Income Ins. Plan, 774 F.3d 1193
(8th Cir. 2014); Wang Laboratories, Inc. v. Kagan, 990
F.2d 1126, 1128–29 (9th Cir. 1993); Buce v. Allianz Life
Ins. Co., 247 F.3d 1133, 1149 (11th Cir. 2001). In this case,
the Tenth Circuit held that if “the plan has a legitimate
connection to the State whose law is chosen,” then “the
selected law should govern whether a discretion-granting
provision is enforceable.” Ellis v. Liberty Life Assurance
Co. of Boston, 958 F.3d 1271, 1288 (10th Cir. 2020). While
the tests use slightly different language, they do not
meaningfully differ. The panel below simply focused the
“reasonableness” inquiry on the plan’s connection to the
chosen state. Ellis, 958 F.3d at 1288. In practice, finding
that the plan has “a legitimate connection to the State
whose law is chosen” would ordinarily compel a finding
that the provision was reasonable. This is particularly
true where, as here, the chosen law is the state where the
plan sponsor is based.
Additionally, the Fifth Circuit has twice enforced
a plan’s choice of law provision in cases against a claim

14
administrator for plan benefits. Singletary v. United
Parcel Serv., Inc., 828 F.3d 342, 351 (5th Cir. 2016)
(claimant did not meet burden to establish that choice
of law provision was invalid, rejecting argument “that
because the defendants have chosen to insure [citizens
of the forum state], they should be subject to its laws”);
Jimenez v. Sun Life Assur. Co. of Canada, 486 Fed. Appx.
398, 407–08 (5th Cir. 2012)(claimant did not meet burden
to invalidate choice of law provision selecting state where
employer was based, even when claimant lived and worked
in forum state).11
The Second Circuit has also enforced a plan’s choice of
law provision in a case in which a plaintiff sought to recover
long-term disability benefits because “the policy on its face
elects Pennsylvania law as controlling its interpretation
and stipulates that it is to be delivered in Pennsylvania.”
Greenberg v. Aetna Life Ins. Co., 421 Fed. Appx. 124, 125
(2d Cir. 2011). In so holding, the Second Circuit did not
adopt any test that conflicts with the “reasonableness/
legitimate connection” test.
11. Jimenez is unpublished, but its reasoning was
subsequently incorporated in to Singletary, which is binding
Fifth Circuit authority. In both cases, the Fifth Circuit declined
to decide which test should apply in assessing the validity of an
ERISA plan’s choice of law provision; however, all three options
articulated in the respective opinions begin with the presumption
that the plan’s choice of law will be enforced unless the participant
suing for plan benefits establishes some unusual circumstance.
See, Jimenez, 486 Fed. Appx. at 408; Singletary, 828 F.3d at 351.
Tellingly, both courts determined the plan’s chosen law was valid
under any test in garden-variety cases in which a plan participant
has sued the claim administrator arguing entitlement to benefits
under the terms of the plan.

15
Citing extensively to DaimlerChr ysler Cor p.
Healthcare Benefits Plan v. Durden, 448 F.3d 918 (6th
Cir. 2006), Ellis tries to manufacture a non-existent circuit
split. Specifically, he claims that in Durden, the Sixth
Circuit applied a test set forth in the Restatement (Second)
of Conflicts of Laws, Section 187,12 to reject the plan’s
choice of law provision, inferring that the Sixth Circuit’s
test would produce a different result here.13 But Ellis is
wrong. The Sixth Circuit in Durden, like all of the other
circuits, adopted a test that presumes the parties’ choice
of law provision is effective, absent unusual circumstances.
Ellis’s argument would require courts to ignore the very
first prong of the Restatement Test.
Under Section 187, the first inquiry is whether “the
particular issue is one which the parties could have
resolved by an explicit provision in their agreement
directed to that issue.” Restatement (2d) Conflicts of Law
§ 187(1). To determine whether the particular issue could
be resolved by an explicit provision in the plan, the Sixth
Circuit looked to ERISA and determined under the unique
facts of that case (an interpleader where the court had to
determine which competing claimant was a “surviving
spouse”), that the parties could not have resolved the issue
by an explicit provision in the plan. The court stated:
12. For brevity, Liberty will refer to the Restatement
(Second) of the Conflicts of Law as “the Restatement.”
13. This is a completely new argument. Ellis never argued
that Restatement Section 187 should govern his claim; nor did
he even cite to Durden until his petition for rehearing en banc,
where he only mentioned it in passing as evidence of a circuit split.
The entire argument is thus not suitable for review in this Court.
Walters v. City of St. Louis, Mo., 347 U.S. 231, 233 (1954) (“we will
not undertake to review what the court below did not decide”).

16
ERISA provides that the terms of a plan
alone cannot prevent survivor’s benefits from
being paid to the surviving spouse. While plan
documents may designate someone other than
the surviving spouse to receive such benefits
if the spouse has signed a written, notarized
consent form, the parties to the plan alone do
not have the power to grant survivor’s benefits
to anyone who is not the surviving spouse under
applicable law. Therefore, [under ERISA] the
parties to the Plan could not have resolved
the issue of which claimant is entitled to [the]
survivor’s benefits by explicit provision in the
contract.
Durden, 448 F.3d at 923-24 (internal citations omitted)
(emphasis added).14
Accordingly, under Restatement Section 187, if
ERISA does permit the parties to resolve the particular
issue “then the choice of law provision is enforceable.
Under such circumstances there are no exceptions.” Id.
at 923 (emphasis added).15

14. ERISA requires that pension benefits must be paid
to a surviving spouse absent an express written waiver by the
surviving spouse. 29 U.S.C. §1055(a).
15. This echoes the Court’s admonition in Kennedy
“[t]he plan administrator is obliged to act in accordance with the
documents and instruments governing the plan insofar as such
documents and instruments are consistent with [ERISA] and
ERISA provides no exemption from this duty when it comes time
to pay benefits.” 555 U.S. at 300.

17
Ellis simply assumes, without analysis or support,
that when applying the first prong of Section 187, courts
would look to the forum state’s law in determining whether
the parties could resolve the particular issue by virtue of
the plan’s terms. But the forum state’s law is irrelevant16
because the test is whether ERISA permits the parties to
resolve the particular issue. See Durden, 448 F.3d at 92334; see also Pilot Life, 481 U.S. at 56 (by enacting ERISA,
Congress “intended that a body of Federal substantive
law will be developed by the courts to deal with issues
involving rights and obligations under private welfare
and pension plans”).
Decades of jurisprudence enforcing discretionary
language, extolling its benefits, and clarifying the
parameters of discretionary review, demonstrate that
ERISA does, in fact, permit the parties to resolve the
standard of review. Firestone, 489 U.S. at 111-13; Metro.
Life Ins. Co. v. Glenn, 554 U.S. 105, 108 (2008); Conkright,
559 U.S. 506, 511-13. There are, then, “no exceptions” and
every choice of law provision is effective when analyzing
whether the court will honor the discretionary grant.
The Sixth Circuit test, then, is actually more deferential
than the “reasonableness/legitimate connection” tests
described above as applied to discretionary clauses. The
Court thus need not analyze the Restatement any further.

16. It would be completely circular to look to the law of
the state where the participant decides to file suit, which has
a discretionary ban, to determine whether the plan’s grant of
discretion would be permitted. In every case, the forum state’s
law would automatically control, giving Colorado an easy end-run
around a valid plan term.

18
In sum, all the circuits to have addressed the issue
presume that the ERISA plan’s choice of law provision is
effective. Under any and all of these tests, the choice of
law clause here was enforceable. There is no circuit split
that would make a difference in this case.
B. The Minor Distinctions in the Circuits’ Tests
Would Make No Difference to the Outcome
Here.
1.

Every Circuit to Consider the Applicability
of a Plan’s Discretionary Clause Has
Honored a Plan Sponsor’s Choice of its
Home State’s Law That Does Not Ban
Discretionary Clauses.

Three circuits—the Eighth, Ninth, and Tenth—have
decided the precise issue presented here: whether a benefit
decision is reviewed for an abuse of discretion where
(1) the plan confers discretion, (2) the forum state bans
discretionary clauses, and (3) the ERISA plan contains a
choice of law provision selecting the law of a state that does
not ban discretionary clauses. Brake, 774 F.3d at 1197;
Fenberg v. Cowden Auto. Long Term Disability Plan,
259 Fed. Appx. 958, 959 (9th Cir. 2007);17 Ellis, 958 F.3d
at 1288-89. Those circuits have uniformly enforced choice
of law provisions and applied discretionary review. Id.
17. Though Fenberg is unpublished, it reiterates —
specifically in the discretionary clause context—the binding Ninth
Circuit authority on enforcing choice of law provisions in ERISA
plans. Wang, 990 F.2d at 1128–29. In Wang, the Ninth Circuit
unambiguously stated that choice of law provisions should be
enforced so long as they are “not unreasonable or fundamentally
unfair.” Id.

19
As explained above, these circuits all applied a virtually
identical “reasonableness/legitimate connections” test.
Thus, under the specific discretionary review question
at issue here, the law is uniform and there is nothing for
this Court to resolve.
2.	Applying the Durden Restatement Test
Would Result in Application of the Choice
of Law Clause Here.
But even indulging Ellis’s argument and actually
performing the full Durden/Restatement analysis
would not affect the outcome of this case. Importantly,
Durden involved unusual circumstances that simply have
no application here. Unlike any of the cases discussed
above, Durden did not involve a participant’s claim for
benefits against a claim administrator and did not hinge
on interpreting and applying plan terms. As explained,
Durden was an interpleader action. The court was not
tasked with deciding whether a surviving spouse was
entitled to benefits under the terms of an ERISA pension
plan. Instead, the issue was which state’s law would apply
to determine which of two claimants simultaneously
married to the decedent was a “surviving spouse” entitled
to pension benefits. Adding further complexity to the case,
neither marriage had any connection to the employer’s
home state (Michigan), which was selected by the plan’s
choice of law provision.18 Durden, 448 F.3d at 922-23.
With this extraordinary factual background, the Sixth
Circuit looked to Restatement Section 187 to determine
18. One of the participant’s wives lived in Tennessee and the
other lived in Ohio, which is where the participant died. Neither of
the marriages had any connection to Michigan. Id. at 921.

20
which of the simultaneous marriages produced the legallyrecognized “surviving spouse.” The seemingly-variant
outcome in that case was not the result of a different
test, but rather because the court’s analysis centered on
what amounted to a state family law dispute between two
beneficiaries in which the plan was only a nominal party
(having conceded that benefits were due under the plan
terms, but being unsure whom to pay). Id. at 923. The
court acknowledged that this was “one of the rare cases”
in which a court may not enforce a choice of law provision
in an ERISA plan. Id. at 927.
Moreover, as explained, the Durden court had to
advance beyond the first step of Restatement Section 187
(whether the parties could have resolved the particular
issue), because ERISA did, in fact, bar the parties to the
plan from resolving the matter at issue (which beneficiary
is the surviving spouse) with a specific plan provision.
Id.at 923-24. Accordingly, the court went on to assess
the remainder of Section 187. Again, that step is not
necessary when the “particular issue” is one the parties
can resolve by the terms of the plan, such as discretionary
review. But proceeding with the (unnecessary) Durden
analysis would yield the same result here. As explained
below, when a court is tasked with determining whether
a participant is entitled to benefits under the terms of a
group disability policy, Restatement Sections 187 and 192
function together to confirm that the employer’s home
state law always applies by operation of the choice of law
provision or because it is the law of the employer’s home
state.
In proceeding with the additional test that is not
necessary in this case, the Durden court reaffirmed
that even where ERISA does not permit the parties to

21
resolve the issue, “[a] choice of law provision is usually
still given effect.” Id. at 924. Restatement Section 187(2)
(b),19 articulates a narrow exception stating that a choice
of law provision will not be effective when “(1) it would
be contrary to a fundamental policy of the state whose
law would otherwise be applied; and (2) the state whose
law would otherwise be applied has a materially greater
interest in the particular issue under consideration than
the state named in the choice of law provision.” Id.
Given the issue presented in Durden, the court
explained that in the absence of a choice of law provision,
it “would look to section 283 of the Restatement which
governs the law applicable to determining the validity
of a marriage.” Id. Here, again, this case diverges from
Durden. When determining what state law to apply
to a group policy (absent a choice of law provision), the
Sixth Circuit has advised that Restatement Section 192,
comment h governs the conflicts of laws analysis “where
the master policy controls the rights of the insured.” Med.
Mut. of Ohio v. deSoto, 245 F.3d 561, 572 (6th Cir. 2001). 20
19. There is another exception in 187(2)(a) for when the chosen
state law does not have a substantial relationship to the parties
or transaction, which “clearly does not apply” when the parties
chose the law of the state where the employer is headquartered
(as in this case and in Durden). Id.
20. The DeSoto court ultimately did not apply Restatement
Section 192 because of the “unique circumstances of [the] case”;
the insurance certificate, not the master policy, was the operative
contract. Id. at 571-72. “If this suit were premised upon the
contract between [the insurer and the employer]—that is, the
master policy—as is generally the case, we might well reach a
different conclusion.” Id. at 572. Here, there is no dispute that the
Group Policy governs Ellis’s claim.

22
Comment h to Restatement Section 192 confirms that,
for group insurance policies, (1) choice of law provisions
are likely to be enforced and (2) even absent a choice of law
provision, the controlling law is generally the law where
the employer is based:
In the case of group [disability] insurance,
rights against the insurer are usually governed
by the law which governs the master policy. This
is because it is desirable that each individual
insured should enjoy the same privileges and
protection. So where an employer arranges for
group [disability] insurance for its employees,
the rights of a particular employee against
the insurer will usually be determined, in the
absence of an effective choice-of-law clause and
at least as to most issues, not by the local law
of the state where the employee was domiciled
and received his certificate but rather by the
law governing the master policy with respect
to that issue. This will usually be the state
where the employer has his principal place
of business.

The Sixth Circuit has also recognized that beneficiary-versusbeneficiary cases (like Durden), which often turn on ancillary
family or property law questions, are governed by different
choice of law rules than participant-versus-claim administrator
or insured-versus-insurer cases, in which the primary issue is
“the operation of the insurance contract terms.” Travelers Ins.
Co. v. Fields, 451 F.2d 1292, 1296–97 (6th Cir. 1971); see also id. at
1296 n.4 (citing to Section 192 to explain that the policy’s choice of
law provision would likely be enforced if the case was an insuredversus-insurer case rather than a dispute between beneficiaries).

23
Choice-of-law provisions contained in group
life insurance policies are more likely to be
given effect than in the case of ordinary life
insurance. This is because the organization or
individual which procures the master policy
will usually have a stronger bargaining position
than an individual insured with the result that
the choice-of-law provision is less likely to have
a “take-it-or-leave-it” character.
Restatement (Second) of Conflict of Laws § 192, cmt. h,
l 21 (1971) (emphasis added). 22
Application of Section 192 thus demonstrates that
Pennsylvania law would apply either because the choice
of law provision is enforceable or because Pennsylvania is
where Ellis’s employer is based. This moots the remainder
of the 187(2)(b) analysis because the second and third steps
of the analysis would require comparing Pennsylvania law
to Pennsylvania law.
Ellis makes another analytical error on this prong by
(again) assuming that Colorado’s “law would otherwise be
21. Comment h refers specifically to group life insurance
policies and comment l extends it to disability insurance.
22. As Comment h highlights, the master policy typically
controls inquiries into whether a claimant is entitled to benefits.
A certificate is merely a document provided to an insured
summarizing the terms of coverage, but not independently
providing coverage. See, e.g., Boseman, 301 U.S. at 198-99, 203
(a certificate “served merely as evidence of the insurance of the
employee. [The employee’s] rights and [the insurer’s] liability
would have been the same” even if no certificate was ever issued
because the group policy sets forth the terms of coverage).

24
applied” if the choice of law provision is invalidated. This
is wrong because under Restatement Section 192, the
law of the state where the employer is based is the law
that will “otherwise apply” if the choice-of-law provision
is invalidated. The analysis could, potentially, proceed
if the choice of law provision elected the law of some
state with no connection to the employer. But whenever
a group policy elects the law of the employer’s home
state, that state’s law will apply. Applying Durden and
the Restatement 23 makes no difference to the result here
because Pennsylvania law would apply—either because
the choice of law provision is enforceable or because
Comcast is based in Pennsylvania. 24
23. For the purposes of this brief, Liberty assumes the Sixth
Circuit would use the Durden analysis in a participant-versusclaim administrator case over entitlement to plan benefits. But
it is worth noting that Durden preceded this Court’s holding in
Heimeshoff, 571 U.S. at 109–10 (2013), that because “the plan is
at the center of ERISA,” plan terms (in that case, a contractual
limitations period) will be upheld if they are reasonable. Indeed,
even under the unique Durden fact pattern, the dissenting opinion
advocated a much simpler test honoring the parties’ chosen plan
term, similar to Heimeshoff and all of the other circuit cases
discussed above. Durden, 448 F.3d at 292 (Merritt, J., dissenting)
(Restatement analysis is “overly complex and convoluted and
. . . impair[s] the explicit obligations concerning the governing law
that the parties themselves wrote into their contract”).
24. To be clear, Liberty’s only purpose in even engaging in
what the Durden dissent characterized as an “overly complex and
convoluted” Restatement analysis, is to illustrate that applying
such analysis to this set of facts, would not change the outcome.
And thus, there is no circuit split. There is no reason or need for
this Court to clarify the proper mode of analysis in a disparate
fact pattern that the Durden majority itself characterized as the
“rare case.” But even if there was, this case would not be a suitable
vehicle to do so.

25
C.

There Is No Confusion Among The Circuits As
To The Applicable Standard of Review Where
The Plan Sponsor Chooses The Law Of Its
Home State And That Home State Does Not
Ban Discretionary Clauses.

Ellis imagines chaos and confusion on the part of
beneficiaries who live in states that ban discretion because
these beneficiaries will not know what standard of review
courts will apply if they sue for ERISA-governed benefits
in light of the supposedly different tests employed by
the circuits. There is no risk of such confusion (even
assuming claimants are aware of standards of review
and discretionary bans when submitting their claims). In
this type of lawsuit, courts uniformly honor choice of law
provisions that elect the choice of law where the employer
is headquartered—because it is not unreasonable or
fundamentally unfair, because the plan has a legitimate
connection to the state, or because Restatement Section
187 or 192 apply. The different verbiage used by the
circuits is a distinction without a difference—under any
test, Colorado’s legislature cannot change the terms of
this Pennsylvania group policy issued to a Pennsylvania
employer that complies with Pennsylvania insurance
law (which does not ban discretionary clauses). The law
already provides certainty on this point.
II. Ellis’s Proffered Rule Contravenes Established
Precedent From This Court.
More than eight decades ago (before ERISA and before
the current Restatement) this Court recognized that when
a group insurance policy covers a group of employees,
the rights of those employees against that insurer are

26
governed by the law of the state where the employer
is headquartered—particularly when the group policy
expressly elects that law. Boseman, 301 U.S. 196 at 200.
The policy in Boseman, like the Group Policy here, offered
disability benefits to the employees of a Pennsylvaniabased employer. Id. at 198. Also echoing the Group Policy
here, the Boseman policy stated that it was “issued and
delivered in the Commonwealth of Pennsylvania and
is governed by the laws of that Commonwealth.” Id. at
200. The plaintiff, a Texas resident, applied for disability
benefits, but failed to give notice during the policy’s 60-day
notice period, a permissible period under Pennsylvania
law. Id. at 198. Texas, however, had a statute voiding any
notice period less than 90 days. Id. The plaintiff argued
that Texas law governed his rights against the insurer
under the policy because he resided in Texas and received
his insurance certificate there. Id. at 203. The Court
disagreed, concluding that Pennsylvania, not Texas, law
governed the policy not only because the policy was issued
and delivered in Pennsylvania and elected Pennsylvania
law, “but also by the purpose of the parties to the contract
that everywhere it shall have the same meaning and give
the same protection, and that inequalities and confusion
liable to result from applications of diverse state laws shall
be avoided.” Id. at 206.
Boseman is consistent with ERISA and with the
Restatement: Pennsylvania law governs the parties’
dispute. Ellis’s argument utterly fails to account for and
thus contravenes Boseman—another reason the Court
should deny his petition for certiorari.

27
III. The Tenth Circuit’s Decision Does Not Implicate
The Saving Clause Or State Regulation Issues.
Ellis argues that the Tenth Circuit’s decision
impermissibly infringes on states’ rights to regulate
insurance as preserved in ERISA’s saving clause. It
does not. The cases invariably honoring a plan’s choice
of law election in participant-versus-claim administrator
disputes simply decide which state’s law (to the extent
not preempted by ERISA due to the saving clause or
otherwise), applies to the plan. The parties to the plan
did not “displace any state regulation simply by inserting
a contrary term in plan documents.” 25 (Petition, at 6.)
Although Unum Life Insurance Company v. Ward, 526
U.S. 358 (1999) provides a helpful sound bite for Ellis,
it is wholly irrelevant to the issue here. Ward was not a
choice of law case. The parties agreed that California’s
state insurance regulations would apply to the plan to the
extent they were not preempted; the Court was instead
tasked with determining whether California’s noticeprejudice rule was a law regulating insurance that was
“saved” from preemption.
Here, the dispute is not about whether a state law
can be “saved,” it is a dispute over which state’s law
applies when a sophisticated national employer agreed
that its insurance-funded ERISA benefit plan would be
subject to regulation by the state where the employer was
headquartered, to the extent not otherwise preempted
by ERISA. This is not, as Ellis portrays, an issue of
25. Indeed, what Ellis wants is to give every state the ability
to “displace any [other] state regulation simply by inserting a
contrary term in” its own regulatory scheme.

28
a federal court usurping state power that has been
expressly preserved in the saving clause. Rather, it is
an issue of whether a court sitting in a state that bans
discretionary clauses, can alter the terms of an insurance
contract funding an employee benefit plan (1) between a
foreign insurer and a foreign employer; (2) delivered to
the employer in the state where the employer is based;
and (3) expressly electing the law of the state where the
policy was delivered and where the employer is based. 26
26. The Colorado statute that existed throughout this
litigation expressly governed only policies “issued in [Colorado],”
which the Group Policy was not. C.R.S. § 10-3-1116(2); Boseman,
301 U.S. at 198-99, 203 (policy is issued where the group policy
issued, not where each certificate is issued because a certificate
“served merely as evidence of the insurance of the employee. [The
employee’s] rights and [the insurer’s] liability would have been the
same” even if no certificate was ever issued). The fact that the
version of the statute actually in effect during the relevant time
frame, does not, by its terms, apply to the Group Policy at issue
(which was not “issued in Colorado”) provides yet another reason
why the result here would not change regardless of the choice of
law analysis.
Moreover, as explained above, anticipating he would lose the
appeal, Ellis lobbied the state legislature to expand the statutory
definition of “issued” beyond recognition and retroactive for a 12
year period. (Response to Ellis’s Petition for Rehearing, at 10.)
Because the statutory amendment post-dated the panel’s decision,
the new statutory language was not analyzed by the lower courts
in this case and is not appropriate to consider here in the first
instance. Walters v. City of St. Louis, Mo., 347 U.S. 231, 233 (1954)
(“we will not undertake to review what the court below did not
decide”). It is worth noting, however, that the amended statute is
constitutionally problematic because it allows Colorado to meddle
in the terms of a contract formed in and under the laws of another
state. See, e.g., New York Life Ins. Co. v. Head, 234 U.S. 149, 163-64
(1914) (licensing a foreign insurer to conduct business in a State

29
Ellis attempts to frame the saving clause and ERISA’s
desire to avoid a patchwork of different regulations as
inherently at odds. But there is no tension between the
saving clause and national consistency. ERISA law can
both preserve the right of a state to regulate insurance
and ensure consistency by determining which state’s
“saved” insurance law applies to disputes concerning
employees’ entitlement to benefits under the terms of the
plan. The choice of law cases are thus entirely in line with
ERISA’s goal of consistency as well as with the purpose
of preserving the ability of a state to regulate insurers
that issue policies subject to that state’s law.
CONCLUSION
Discretionary review fulfills the purposes of ERISA,
as does honoring the plan sponsor’s decision to have
the plan governed by the laws of the state where it
is based when participants sue for plan benefits. The
circuits unanimously recognize choice of law provisions
accomplishing those things. Moreover, the plan will still
be subject to state regulation as contemplated by the
does not “extend[] state power so as to cause it to embrace subjects
wholly beyond its legitimate authority,” that is, “the domestic
concerns of other States.”); cf BMW of N. Am., Inc. v. Gore, 517
U.S. 559, 570–72 (1996) (“one State’s power to impose burdens
on the interstate market . . . is . . . constrained by the need to
respect the interests of other States”). Additionally, the amended
statute purports to apply 12 years retroactively and retroactive
application of the original statute was already determined to
violate the Colorado Constitution. McClenahan, 621 F. Supp. 2d
at 1142-43; see also E. Enterprises v. Apfel, 524 U.S. 498, 528–29,
118 S. Ct. 2131, 2149, 141 L. Ed. 2d 451 (1998) (retroactive statutes
may violate the federal constitution).

30
savings clause, but without having the increased expense
and uncertainty of multiple states regulating the same
plan. The Court should deny the petition for certiorari
because there is no circuit split or important issue to be
resolved and the Tenth Circuit’s decision would stand
under any test.
Respectfully submitted this 18th day of March 2021.
Kristina N. Holmstrom
Ogletree, Deakins, Nash,
Smoak & Stewart, P.C.
2415 East Camelback Road,
Suite 800
Phoenix, Arizona 85016
(602) 778-3700

Byrne J. Decker
Counsel of Record
Ogletree, Deakins, Nash,
Smoak & Stewart, P.C.
Two Monument Square,
7th Floor
Portland, Maine 04101
(207) 387-2957
byrne.decker@ogletree.com

Counsel for Respondent

